<html>
<title> - [H.A.S.C. No. 115-120]CONTRIBUTING FACTORS TO C-130 MISHAPS AND OTHER INTRA-THEATER AIRLIFT CHALLENGES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 115-120]

                     CONTRIBUTING FACTORS TO C-130

                    MISHAPS AND OTHER INTRA-THEATER

                           AIRLIFT CHALLENGES

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                           SEPTEMBER 28, 2018
                                     
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
33-476                     WASHINGTON : 2019                                     
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                 ROBERT J. WITTMAN, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
BRADLEY BYRNE, Alabama, Vice Chair   JAMES R. LANGEVIN, Rhode Island
SCOTT DesJARLAIS, Tennessee          MADELEINE Z. BORDALLO, Guam
MIKE GALLAGHER, Wisconsin            JOHN GARAMENDI, California
PAUL COOK, California                DONALD NORCROSS, New Jersey
STEPHEN KNIGHT, California           SETH MOULTON, Massachusetts
RALPH LEE ABRAHAM, Louisiana         COLLEEN HANABUSA, Hawaii
PAUL MITCHELL, Michigan              A. DONALD McEACHIN, Virginia
(Vacancy)
                Bruce Johnson, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Megan Handal, Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     2
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Seapower and Projection Forces.......     1

                               WITNESSES

Conn, RADM Scott D., USN, Director, Air Warfare, Office of the 
  Chief of Naval Operations, Department of the Navy..............     5
Harris, Lt Gen Jerry D., Jr., USAF, Deputy Chief of Staff for 
  Strategic Plans and Programs, Department of the Air Force......     3
Kirkland, Lt Gen Donald E., USAF, Commander, Air Force 
  Sustainment Center, Department of the Air Force................     4

                                APPENDIX

Prepared Statements:

    Conn, RADM Scott D...........................................    43
    Harris, Lt Gen Jerry D., Jr..................................    25
    Kirkland, Lt Gen Donald E....................................    33
    Wittman, Hon. Robert J.......................................    23

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Courtney.................................................    53


 
           
 CONTRIBUTING FACTORS TO C-130 MISHAPS AND OTHER INTRA-THEATER AIRLIFT 
                               CHALLENGES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                        Washington, DC, Friday, September 28, 2018.
    The subcommittee met, pursuant to call, at 9:02 a.m., in 
Room HVC-210, Capitol Visitor Center, Hon. Robert J. Wittman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. We will call to order the House Armed Services 
Subcommittee on Seapower and Projection Forces. And today, the 
subcommittee convenes to receive testimony on contributing 
factors to C-130 mishaps and other intra-theater airlift 
challenges.
    The distinguished panel of Air Force and Navy leaders 
testifying before us today are Lieutenant General Jerry D. 
Harris, Deputy Chief of Staff for Strategic Plans and Programs, 
Department of the Air Force; and Lieutenant General Donald 
Kirkland, Commander, Air Force Sustainment Center, Department 
of Air Force; and Rear Admiral Scott D. Conn, Director, Air 
Warfare, Office of Chief of Naval Operations, Department of the 
Navy.
    Gentlemen, thank you so much for being here with us today. 
We deeply appreciate your time and your viewpoints.
    Recently, there have been an alarming rise in noncombat 
aviation accidents. From fiscal year 2013 to 2017, manned 
fighter, bomber, helicopter, and cargo warplane accidents rose 
nearly 40 percent, resulting in the loss of life of over 130 
service members in aviation mishaps.
    Of these incidents, over 20 percent of fatalities occurred 
in three accidents involving legacy intra-theater aircraft C-
130H Hercules, KC-130T, and C-2A Greyhound aircraft operated by 
the Puerto Rican Air National Guard [PRANG], U.S. Marine Corps 
Reserve, and Navy Active Duty, respectively.
    Considering these three mishaps involve legacy intra-
theater aircraft, it is my fervent belief that the services 
must do everything possible to ensure the safety of flight. To 
this end, among the things this committee must consider is the 
recapitalization and modernization of the oldest and most 
vulnerable legacy aircraft.
    A review of the Air Force's intra-theater airlift portfolio 
shows that the service is on track to recapitalize its Regular 
Component units with C-130J aircraft. The Air Force is now 
recommending that the Reserve and Air National Guard retain 
significant capacity in the legacy C-130H aircraft.
    To extend the life and relevance of the legacy Guard and 
Reserve fleet, the Air Force is recommending funding for major 
modernization programs, such as center wing box replacement, to 
lengthen service life in addition to pursuing aviation 
modernization program upgrades to keep these aging aircraft 
relevant.
    This committee has been active in supporting propulsion 
system upgrades for legacy C-130 aircraft in the Reserve 
Component by authorizing additional funds for this important 
effort. To date, the Air Force has not requested this funding 
in its base budget.
    Our review of Marine intra-theater aircraft shows that the 
service is also on track to fully recapitalize its aging KC-
130T fleet with 79 new KC-130J aircraft, to include its Reserve 
squadrons, to be completed by 2023.
    And finally, the Navy begins to recapitalize its legacy K-
130T fleet of 25 aircraft by procuring its first 3 new aircraft 
in 2023. With that said, questions remain as to the level of 
effort being placed in the pursuit of this program by the Navy 
and Air Force Reserve sponsors as they seek to balance the 
needs of competing service priorities.
    Additionally, there is concern over how the services 
respond--or responded to the crash of the KC-130T and PRANG C-
130H, with Navy and Marines grounding their fleets and Air 
Force choosing to continue to fly those aircraft.
    And more specifically, this committee is interesting in 
learning how and why the legacy C-130 propeller systems are 
serviced differently between the Marine Corps and Air National 
Guard aircraft at the depots.
    George Patton once said, ``The more you sweat in peace, the 
less you bleed in war.'' Our most urgent responsibility is to 
ensure enough sweat is being shed to reduce this bleeding.
    With that, I will go to our ranking member, Mr. Courtney, 
for his opening remarks.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 23.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman. And thank you to the 
witnesses for their testimony here today.
    The Seapower and Projection Forces Subcommittee today meets 
once again to consider a rash of tragic mishaps that have cost 
the lives of many service members.
    In 2017, we held a series of hearings and briefings to 
consider the causes, consequences, and path forward following 
four ship collisions and groundings alongside--groundings. 
Alongside our partners on the Readiness Subcommittee, we 
conducted frequent oversight of this issue and also guided 
through a number of reforms in the NDAA [National Defense 
Authorization Act] on surface ship procedure which, again, we 
believe will reduce the amount of risk for these kinds of 
events happening in the future.
    As the chairman said, in the last year and a half, 
unfortunately, we have also seen three fatal mishaps across our 
Air National Guard, Marine Corps Reserve, and Navy air fleet. 
Tragically, these incidents have taken the lives of 28 service 
members. Once again, Congress and military services must come 
together to assess the causes of these mishaps and to ensure 
that the right focus is being applied in order to prevent 
similar mishaps in the future.
    As we have learned from the process of reviewing ship 
collisions and groundings, a single mishap has immediate 
causes, but a rash of mishaps derives from systemic issues 
within the force. Fewer flying hours leads to less experienced 
pilots who are more likely to make mistakes during stressful 
situations; decreased material readiness of our fleet makes 
mechanical failure--sometimes catastrophic--more likely.
    As we review each individual tragedy, we must be focused 
not only on what a mishap says about the individual case, but 
what each mishap can tell us about the state of military 
aviation overall.
    While we are focused here today on the intra-theater 
airlift fleet, I was glad to see that the full House and 
Senate, under the leadership of Mr. Thornberry and Ranking 
Member Smith, included a provision in the fiscal year 2019 
National Defense Authorization Act which establishes a national 
commission on military aviation safety.
    This commission will review the rates of military aviation 
mishaps across the services and across aviation missions, 
assess the underlying causes of these mishaps, and make 
recommendations to improve safety training and maintenance and 
personnel policies.
    I hope the testimony here today will help inform and guide 
the work of this commission as it gets started on this 
important mission.
    I look forward to hearing the witnesses' views on these 
issues today and yield back my time.
    Mr. Wittman. Thank you, Mr. Courtney.
    I will now turn to our witnesses for their opening 
statements.

STATEMENT OF LT GEN JERRY D. HARRIS, JR., USAF, DEPUTY CHIEF OF 
 STAFF FOR STRATEGIC PLANS AND PROGRAMS, DEPARTMENT OF THE AIR 
                             FORCE

    General Harris. Thank you, Chairman Wittman, Ranking Member 
Courtney, for the opportunity to appear before the HASC [House 
Armed Services Committee] Subcommittee on Seapower and 
Projection Forces.
    On behalf of Secretary Wilson and Chief of Staff of the Air 
Force General Goldfein, I would like to also commend you for 
the fiscal year 2019 NDAA efforts. If the Congress and the 
executive branch are able to continue on their current pace, we 
expect to have a fiscal year 2019 budget on time. First time in 
decades that's not starting a year with continuing resolution, 
or worse, a sequester budget. And that's a favorable start for 
fiscal year 2019. Well done and thank you.
    As we review your draft legislation for the fiscal year 
2019 NDAA, we all recognize the sacrifices that the American 
families make to live and enjoy the freedoms in a safe and 
secure democracy.
    With committees like yours as our best supporters and 
guarantors of that freedom, we recognize the importance of 
hearings like today on C-130 modernization and safety.
    Let me be the first to say that we would like to do more 
and go faster when it comes to modernization of our C-130 
fleet.
    We have reduced most of our fleets over the last decade, 
and the C-130 fleet has been no exception, falling from more 
than 400 aircraft to about 300 in the Air Force inventory. The 
C-130 continues to be a workhorse that accomplishes tactical 
airlift, Antarctic resupply, aeromedical evacuation, natural 
disaster relief missions, search and rescue, firefighting 
duties, and support to special operations.
    But we have had to make hard choices because of declining 
budgets, late budgets of the past, sequestration, and new 
strategies for changing threats.
    During this period, we prioritized safety and then 
compliance, when it comes to operating, maintaining, and 
sustaining all of our capabilities. We just haven't been able 
to get to it all.
    Readiness, lethality, and cost-effective modernization 
efforts have guided our plans as we continue to deliver the 
world's greatest air and space force.
    I request our written statements be entered into the 
record, and I look forward to your questions and our ensuing 
discussions. Thank you.
    [The prepared statement of General Harris can be found in 
the Appendix on page 25.]
    Mr. Wittman. Thank you, Lieutenant General.
    Lieutenant General Kirkland.

 STATEMENT OF LT GEN DONALD E. KIRKLAND, USAF, COMMANDER, AIR 
     FORCE SUSTAINMENT CENTER, DEPARTMENT OF THE AIR FORCE

    General Kirkland. Chairman Wittman, Ranking Member 
Courtney, distinguished members of the subcommittee, thank you 
for the opportunity to update you on legacy C-130 sustainment 
and readiness.
    On behalf of our Secretary, the Honorable Heather Wilson, 
and our Chief of Staff, General David Goldfein, I appreciate 
your continued support and demonstrated commitment to our 
airmen, Air Force civilians, our families, and veterans.
    As I attest in my written statement for the record, the C-
130s are safe, effective aircraft for its missions, and we have 
programs in place to ensure these conditions going forward. We 
take our responsibilities for our people and our mission very 
seriously.
    Earlier this spring, General Goldfein directed all wing 
commanders and operational maintenance leaders to conduct a 
one-day operations safety review. Commanders focused on 
assessing processes and looking for areas of improvement to 
prevent future mishaps. Our service members and citizen airmen 
are our greatest asset. We are absolutely committed to their 
safety as we continue to deliver combat power to our combatant 
commanders.
    On the sustainment front, this year we began a 
consolidation of all C-130 program depot maintenance workload 
currently at the Ogden Air Logistics Complex in Utah to the 
Warner Robins Air Logistics Complex at Robins Air Force Base, 
Georgia. This transition will be completed by fiscal year 2022.
    Because all three of our complexes operate as an 
enterprise, our Air Force will be able to achieve efficiencies 
and greater economies of scale.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Kirkland can be found in 
the Appendix on page 33.]
    Mr. Wittman. Thank you, Lieutenant General Kirkland.
    I will now go to Rear Admiral Conn.

 STATEMENT OF RADM SCOTT D. CONN, USN, DIRECTOR, AIR WARFARE, 
OFFICE OF THE CHIEF OF NAVAL OPERATIONS, DEPARTMENT OF THE NAVY

    Admiral Conn. Chairman Wittman, Ranking Member Courtney, 
and distinguished members of the subcommittee, thank you for 
the opportunity to appear before you today and discuss the 
Navy's intra-theater airlift plan.
    The Navy provides continuous forward-deployed maritime 
strike and expeditionary power projection force. Supporting 
that force requires a unique logistics infrastructure.
    Due to the distributed nature of naval operations, 
logistics support includes inter-theater lift that bridges the 
gap between the joint force provider of aerial ports of 
debarkation to those fleet logistics sites around the globe. We 
call this capability the Navy Unique Fleet Essential Airlift, 
or NUFEA.
    Operated entirely by the Navy Reserves, NUFEA consists of 
24 C-140Ts, 15 C-40 aircraft, and provides the responsive, 
flexible, and rapidly deployable air logistics to support 
necessary combat operations from the sea.
    The C-40A leads the NUFEA fleet in range and capacity, able 
to carry in excess of 36,000 pounds, 121 personnel, or a 
combination of both. And it is the only medium-lift aircraft 
that's able to transport hazardous cargo and personnel at the 
same time.
    Thanks to congressional support, the Navy will now field 
its last two program aircraft in fiscal year 2019, to complete 
a program record of 17 aircraft.
    The C-130T fills the NUFEA requirements for medium-lift and 
outsized cargo. It is the only Navy aircraft capable of moving 
all modules of the F-35 engine.
    Additionally, the C-130T provides unique capability, 
delivering passengers and cargo to austere locations, including 
unprepared fields and runways less than 3,000 feet. And in 
light of the landscape that we are in right now strategically, 
that's probably an important capability that we need.
    The Navy completed the procurement of the C-130Ts in 1996. 
We are now looking to recapitalize our effort, beginning with 
advanced procurement in 2019, buying three aircraft, as you 
said, sir, in fiscal year 2023.
    But it is not just recapitalizing. It is the modernization 
of the aircraft; we have to keep them relevant.
    In fiscal year--or PB [President's budget] 2019, there's 
$28.5 million for avionics, communications, and obsolescence 
upgrades to keep the aircraft compliant with FAA [Federal 
Aviation Administration] and ICAO [International Civil Aviation 
Organization] standards to able to--in the air traffic control 
management systems across the world.
    Additionally, of the $121 million that Congress adds for 
the NP2000 props [propellers] to be able to--to get us out of 
``Red Stripe'' as well as getting the--the new legacy blades 
that we are getting from Warner Robins, in concert we will have 
all the aircraft up by fiscal year 2019 and all the aircraft 
converted to the NP2000 by fiscal year 2020.
    That is--there was also $8.9 million to update the carbon 
brakes that Congress gave us through NGREA [National Guard and 
Reserve Equipment Appropriation] funds for our Reserves to 
improve the reliability and maintainability of those aircraft.
    These modernization efforts are critical to maintain the 
Navy logistics support to our deployed forces. As I said, we 
began advanced procurement in fiscal year 2019 to recapitalize 
our KC-130Js, with three aircraft being bought in 2023.
    If the budget changes, budget profiles changes in 
subsequent budget cycles, we may have to revisit whether we 
continue to recapitalize or modernize; based on those budget 
levels, that decision will be made for--at a different time.
    As people and parts arrive to our fleet logistics sites via 
the NUFEA aircraft, they are transferred to one of our Navy's 
34 C-2 aircraft, that completes that last tactical mile to get 
those parts and people out to our carrier strike groups.
    C-2A is over 30 years old. We have our maintenance material 
condition challenges associated with that. We are addressing 
those, but we are also looking to recapitalize that aircraft 
for our CMV-22.
    Initial plan was to sundown the C-2 in 2027. With the help 
of Congress, with additional adds, we have been able to push 
that left to fiscal year 2024. CMV-22 will IOC [intial 
operating capability] in the Navy in 2021, and that is mapped 
to our first F-35 deployment for those engine considerations, 
and we will continue to transition to be transition-complete by 
the end of fiscal year 2024.
    Mr. Chairman and Ranking Member Courtney, distinguished 
members, thank you for their--your leadership and the support 
of this subcommittee to provide the resources that enable our 
sailors to do their job. On behalf of the men and women working 
tirelessly to protect American interests at home and abroad, I 
thank you for the opportunity to discuss Navy inter-theater 
lift plans, and I look forward to your questions.
    [The prepared statement of Admiral Conn can be found in the 
Appendix on page 43.]
    Mr. Wittman. Rear Admiral Conn, thank you. Thanks so much 
for your comments on the Navy's efforts there with KC-130T.
    Lieutenant General Kirkland, I want to start with you. It 
is my understanding that the KC-130T, the Navy version, and the 
C-130H, Air Force, both have their propulsion system as well as 
other depot-level maintenance done at Warner Robins Air 
Logistics Center.
    I do understand that both the Navy and the Air Force have 
taken a different approach to propeller assemblies, so I wanted 
to--to dig down a little bit into that, and could you explain 
to me what steps have been taken to consolidate those efforts, 
and what we are doing to upgrade propeller assemblies?
    And has the Air Force and Navy response or their efforts in 
addressing propeller assemblies, has that led to a difference 
in how they responded to these recent accidents? And what do 
you think is the outcome of where we are now with the safety of 
those aircraft, based on this depot-level maintenance?
    General Kirkland. Chairman Wittman, thank you for that 
question. I will address both those in turn.
    Sir, you are aware that the--Warner Robins Air Logistics 
Complex it is a single, complete, overall facility for all 54 
H-60 four-bladed propellers. That's the one used on the Air 
Force C-130H and its variants, Navy, Marine Corps, C-130T, KC-
130T aircraft, and a slightly different version of the 
propeller is used on the Navy's P-3.
    The differences in the manuals evolved due to incorporation 
of changes. These updates to technical manuals occur 
frequently. Their purpose is to correct errors or include 
process improvements that we have learned or identified during 
maintenance.
    And although the Warner Robins technicians were trained on 
all manuals, and although there was collaboration and 
coordination between Navy and Air Force C-130 program offices, 
there was no formal effort to ensure respective changes were 
synchronized between the two services in their manuals.
    Last fall, our Air Force program executive officer 
responsible for the C-130 formed an independent review team 
[IRT]. The IRT was formed to guide development of updated 
propeller overhaul requirements. The IRT consisted of members 
from the Air Force, the Navy, Marine Corps, and members of the 
aerospace industry.
    Additionally, the U.S. Navy Propeller Program embedded an 
engineer within the Air Force C-130 program office. Based on 
IRT recommendations, both services' program offices are 
updating propeller overhaul processes to create a common set of 
procedures. Overhaul processes updates are complete for all 
components except for the propeller blade.
    Using these updated procedures, Warner Robins began buildup 
and delivery of the 54 H-60 propellers in March 2018 in support 
of naval aircraft. These propellers are assembled using new 
production blades procured from the original equipment 
manufacturer, who is currently increasing delivery from 30 a 
month to 48 a month, we believe by October.
    Procedures for propeller blade overhaul continue to be 
updated and refined. Initial validation efforts, which started 
last April, should conclude this fall, and we expect that 
Warner Robins depot will reach full production capacity in 
early 2019.
    I would add the Coast Guard is participating in these same 
efforts and will incorporate those changes in their manuals, 
and we will also distribute this to partner nations through 
country-specific technical orders.
    With respect to the response, Chairman Wittman, I would 
focus--it is my understanding the focus was more on the 
operational impacts that--the differences.
    The fleet sizes had something to do with that, but our 
program office--it is my understanding that our program office 
made a value determination based upon the severity of the risk 
against the probability of occurring, and arrived at a serious 
risk, and accepted that risk so that the U.S. Air Force may 
continue to provide the tactical lift that the C-130 provides.
    Mr. Wittman. Thank you, Lieutenant General Kirkland.
    Lieutenant General Harris, I wanted to ask and dig down a 
little bit deeper on what is happening with some of the 
upgrades. You know, since 2014, Congress has put additional 
dollars in over and above the base budget for C-130H propulsion 
system upgrades, and that includes the T56 3.5 engine upgrade 
program, the NP2000 eight-blade propellers.
    Looking at that, if you look at where it is been applied, 
the Wyoming Air National Guard has put those upgrades in place 
and they have seen a 14 percent increase in fuel efficiency and 
performance increases. And I know currently, the Air National 
Guard is testing this engine enhancement and propeller upgrade 
package to see if they can bring additional operational 
sustainment benefits.
    Give me your perspectives. Does the Air Force support these 
engine and propeller upgrades? And if so, why hasn't the Air 
Force requested these funds for upgrade kits for the Air 
National Guard and the Air Force Reserve C-130H fleets? And is 
there a possibility for the Air Force to prioritize 
modernization efforts for the C-130H fleet, given its current 
age and material condition state?
    General Harris. Chairman, sir, thank you for those 
questions.
    Yes, the Air Force is prioritizing the upgrade of this 
fleet, but the average C-130 age is 26 years old, and when we 
look across our fleets, we have got tankers that are pushing 
50. We have bombers that are over that age. So as we do a 
priority across our budget, we have to look at all of the 
fleets that we operate, and the capability associated with 
that.
    For the congressional adds, we thank you for that. It is 
giving us an opportunity to study and look at efficiencies and 
improvements that we can bring into the legacy fleet. We have 
an ongoing operational utility evaluation that should report 
out in March of this year to give us the--the information we 
need to make those decisions.
    When it comes to submitting it in a budget as a budget 
request, our process working through OSD [Office of the 
Secretary of Defense] and then through the OMB [Office of 
Management and Budget] effort, we are limited on topline total 
and I can't ask for everything. So we prioritize across there. 
We do start with safety first, and then we move through 
compliance, and our efforts across all of those fleets. And 
once we have our--the operational utility evaluation out in 
March, we will have better understanding in how this plays.
    We are seeing improvements, as we have said--as you said, 
sir, the Wyoming Guard unit is seeing an ability to get better 
efficiencies out of the aircraft, which is certainly something 
that warrants do them across our fleet.
    Mr. Wittman. Very good. Thanks, Lieutenant General Harris.
    We will now go to our ranking member, Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Just really, one quick question to Admiral Conn. Again, you 
described the replacement program for the C-2 planes. And 
again, just for the benefit of people who may be watching this 
and don't know, maybe, some of the acronyms.
    Again, those are the prop planes that, again, deliver 
people and cargo to aircraft carriers and land with a tailhook. 
And then, they are going to be replaced by the MV, CV-22 
Ospreys, which, again, will land vertically. Is that correct?
    Admiral Conn. Yes, sir, it is.
    Mr. Courtney. Okay. Thank you.
    So, again, the plan that you described, you know, clearly 
the Navy's trying to accelerate that replacement process. These 
are still extremely old planes, as you and I discussed the 
other day, the C-2s.
    I mean, what I heard from your description is, it is still 
about a 5-year window, right? For total replacement by 2024, is 
that?
    Admiral Conn. That is correct, sir.
    Mr. Courtney. Right now. I mean, do you still feel like 
that's the right plan, given the age of those planes? And you 
know, obviously you can't spin straw into gold.
    But I mean, really, this is your opportunity, if you feel 
that, you know, that there's a--that that should be something 
we should be looking at in terms of trying to accelerate it 
further, you know. I just want to yield the floor to you to 
talk about that.
    Admiral Conn. Yes, sir.
    First of all, the C-2 is a cargo aircraft, propeller with 
an arresting gear that catapults and arrests for landing off 
the carrier. It is the primary means by which we get cargo 
airborne, via airlift, out to the carrier--or people, or U.S. 
mail, to keep our sailors--although, there is the internet now.
    But the--it is a 30-year-old airplane. We have gone from 32 
percent mission-capable rate in 2017, to a 40 percent in 2018. 
So the trajectory's in the right directions, but it is nowhere 
near where we want it to be.
    And we are going to continue to make those investments to 
make sure those aircraft are safe to get airborne until the end 
of its service life. I have to fully fund that aircraft until I 
am completely done with it.
    The transition plan is the CMV-22, which is the--it is just 
a modified version of what the Marine Corps flies, but with 
more fuel and a different com [communications] architecture for 
blind--beyond-line-of-sight communications.
    The range, endurance of the CMV-22 exceeds that of the COD 
[carrier onboard delivery] when you consider a hot tropical 
day, fully loaded with 10,000 pounds of cargo, being able to 
fly in excess of 1,100 miles, which meets our requirements for 
combat operations.
    We have accelerated the sundown of the C-2 from 2027 to 
2024. We have our first aircraft being built in Philadelphia 
today, rolling down the line. That aircraft will deliver in 
fiscal year 2020.
    We then have to do a modified OT [operational test] and DT 
[development test], and the only thing--the operational tests--
the only thing that we are testing are the things different on 
the CMV-22 as compared to the MV-22. So that's going to be a 
very compressed test.
    We then IOC and get our first three aircraft to deploy in 
2021. There is no means by which I can accelerate that any 
further when you look at the MILCON [military construction], 
the training that's required for our sailors to operate, 
maintain, and the aircrew that have to fly and get the hours 
they need. We are going as fast as we can go.
    Any additional aircraft at this point would relieve or 
provide a shock absorber during the transition, as we go from 
transition to deployment and follow-on detachments until we are 
completely divested of our C-2.
    Mr. Courtney. Great. Well, thank you. I mean, that's a very 
helpful picture you painted in terms of the program. And again, 
I just encourage you guys to just keep, you know, us abreast.
    You know, one question is, obviously, there was an accident 
and there was a loss of life. And I realize this hearing is not 
about individual--because it--maybe just talk about the status 
of the case investigation.
    Admiral Conn. Yes, sir. Well, the investigation is still 
ongoing. Our recovery and salvage efforts, we have the 22,000 
feet of Kevlar cable to recover the aircraft that is at 18,000 
feet of water in the Philippine Sea.
    We have to do some follow-on testing with the winch on the 
salvage vessel, to be able to reel up this aircraft. And then, 
now that we are in typhoon season in that part of the world, we 
are going to have to wait for the seas to abate.
    Our best estimate right now is, when we look at the 
conditions that the ocean will provide, we are looking late 
spring, early summer of next year.
    Mr. Courtney. Great. Well, thank you for your testimony and 
your great efforts, and also to the other witnesses for being 
here. I yield back.
    Mr. Wittman. Thank you, Mr. Courtney.
    We will now go to Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    To follow up on that line of questioning that the ranking 
member was pursuing, you talk about the differences between the 
C-2 and the CMV-22, which you are testing right now. My 
understanding is that one of the biggest differences is the 
lack of a pressurized cabin on the CMV-22.
    Can you talk to me about what impact that might have 
physiologically on passengers and aircraft, and what we should 
know about those implications?
    Admiral Conn. Yes, sir. The V-22 program has in excess of 
425,000 hours in all unpressurized cockpits. And we haven't 
seen any concern at all about having people inside that 
unpressurized cockpit.
    For the CMV-22, it will fly 10,000 feet and below. We--and 
that was part of the requirements, that it has to be 10,000 
feet and below with a full load of equipment, and meet the 
range specifications to that. And the aircraft will be able to 
do that.
    Additionally, for the--it also has some opportunity because 
it is tiltrotor, not only to go on carriers but when any deck 
is certified for that aircraft--Afloat Forward Staging Base or 
whatnot in the future, that gives us flexibility to distribute 
parts in a distributed maritime operations environment.
    Did I answer your question, sir?
    Mr. Gallagher. Yes, sir.
    General Kirkland, we have heard a lot, you know, when we 
travel around to various shipyards, bases, whatnot--anyone that 
involves hiring of Federal civilian employees, just how 
difficult that process can be. And even with aggressive energy 
and management, it can take as long as 140 days to hire a new 
worker.
    So as you look at, sort of, additional C-130 workload, talk 
to me a little bit about whether you feel like you have the 
skilled labor on hand and the challenges contained in the 
Federal civilian hiring process.
    General Kirkland. Congressman Gallagher, thank you for that 
question.
    I would first like to thank the committee and the larger--
this Committee on Armed Services, for the direct hiring 
authority which we have been provided, which was approved in 
2016. And we have used, through the NDAA, temporary authority 
which I believe is through 2025. Thank you for that.
    It has allowed us to hire over 1,500 employees, averaging 
at 78 days. And that is a combination of the direct hiring 
authority, but also process improvements with our personnel 
center to skinny-down that process. Using direct hiring 
authority, we have accounted for about 75 percent of our 
external hires at the air logistics complex for our depots.
    We are working to expand the direct hiring authority to 
those organizations which directly support our depots, and 
specific to the C-130 workload. Through the combination of 
those efforts, we are 100 percent manned for all of our fiscal 
year 2019 C-130 work at Warner Robins.
    Now the challenge remains, because as we grow our workload 
there, particularly as we transition the naval aircraft 
currently going to Utah down to Georgia, we will continue to 
hire year after year. But the DHA, the direct hiring authority, 
is a key element of the ``1200 in 12'' [hire 1,200 technicians 
in 12 months] initiative going on at Warner Robins right now, 
which began this past summer.
    I would add to that one other thing, that while we work 
closely with vocational and technical schools around the 
locations where our depots are, the Air Force Sustainment 
Center would also benefit from creating an on-ramp for our 
recently retired military personnel. These skilled journeymen 
bring years of experience and a vital buffer as we experience 
other people in the workforce.
    And we are looking--asking through our service to make an 
exception to the 180-day waiting period in support of Federal 
wait system in some of the lower-level general schedule 
employees, particularly with the logistics and supply chain 
management. We need to retain this experience for our service 
members as they walk out the door.
    Mr. Gallagher. I appreciate that. I mean, I tend to think 
that the health of the civilian industrial base is one of the 
most important issues that we face. It could be a limiting 
factor if, God forbid, we had to scale up in response to a 
great power conflict and it is something that's easy to 
overlook.
    It is certainly something I hear, too, beyond the military 
industrial base from every company in Northeast Wisconsin. It 
is just the challenge of finding people, keeping people, 
retaining talent. And so I think it is something we are going 
to need to continue to think about here on the committee.
    And with that, I yield the remainder of my time, Mr. 
Chairman.
    Mr. Wittman. Thank you, Mr. Gallagher.
    We will now go to Ms. Bordallo. Thank you. Thank you.
    Ms. Bordallo. Thank you very much, Mr. Chairman and ranking 
member, and thank you to our witnesses, General Harris, General 
Kirkland, and Admiral Conn.
    Well, I certainly have traveled on C-130s multiple times. I 
consider them to be the military horses of their aircraft. But 
gentlemen, the fiscal year 2019 NDAA outlined a framework 
proposed by Ranking Member Smith for a national commission on 
military aviation safety.
    So I want to ask you, General Harris or Admiral Conn, can 
you please offer your thoughts on how this commission will 
benefit mobility mishaps and impact intra-theater airlift 
challenges?
    General Harris. Yes, ma'am, if you don't mind, I will 
start.
    Ms. Bordallo. Surely.
    General Harris. Our approach to any option to look at 
safety, that's our number one guidance for the business that we 
do in the defense of our Nation, so an opportunity to look into 
that and have those discussions are certainly something that we 
look forward to and are working with.
    That element will be part of a larger study that's being 
released by Transportation Command on the study of our overall 
airlifts, not just TAC [tactical] lift, but also our strategic 
lift.
    We will continue to work with that and make sure that we 
get the information that we need, and the safety is our number 
one issue. That's where we will focus resources if we determine 
that that's where we have to go.
    Ms. Bordallo. Very good. You consider it, then, a benefit?
    General Harris. Yes, ma'am.
    Ms. Bordallo. Admiral Conn.
    Admiral Conn. Anything that addresses or looks into the 
safety of our people, our equipment, or civilians that fly on 
them, I think it is definitely value-added.
    Ms. Bordallo. Very good. My second question is, Lieutenant 
General Harris, Secretary Wilson outlined her plan for a 386-
squadron Air Force to us on Wednesday morning, just this last 
Wednesday.
    The Air Force leadership calls for reducing the number of 
tactical airlift squadrons by 2, but increasing special ops, 
fixed-wing electronic warfare, and fixed-wing rescue units by 
17. Now, if the pilot crisis is depleting our experienced 
aviators, how does the Air Force intend to man these new units 
with senior aviators and mitigate risk across the C-130 force?
    General Harris. So ma'am, you bring up a great question.
    The first thing we want to do is retain the fantastic 
airmen that we have now. If we have an aircrew with 10 or 15 
years of experience, training more will take us 10 to 15 years 
to get that experience back. So we recognize the most important 
feature that you are asking about is how do we take care of the 
fantastic airmen and the aviators that we have across all the 
services? So that's our start that we are working with.
    But we also have to get after the foundation, so we are 
improving our capacity to generate new pilots and new aircrew 
members, and then our ability to absorb those.
    So with our requirement to grow, based on the National 
Defense Strategy [NDS], which is where Secretary Wilson is 
pulling her information from, we have to be able to resize to 
fit the Air Force that we need to win our Nation's wars. So we 
are starting at the beginning to retain those that we already 
have, and then growing our capacity to build new ones and bring 
them on.
    Ms. Bordallo. Very good. My third question, the ``Air Force 
we need'' outlined by the Secretary and the Chief also ties the 
service's way forward to the National Defense Strategy and 
long-term strategic competition with China and Russia.
    General Harris and Admiral Conn, can you speak to how 
intra-theater airlift requirements will change in this 
environment, in regards to tactical and strategic airlift?
    General Harris. Yes, ma'am. Intra-theater airlift will 
continue to be a workhorse, as you described, and the C-130 
will provide that for the long term.
    And the focus of that ``Air Force we need'' study 
recognizes that we actually have more risk in our strategic 
lift, so you see some growth in our ability to--to get after 
what we are required to do to meet, as the NDS says, our bigger 
threats of China, then Russia. And that's a different focus 
than we have had in the last several years. So you are going to 
see a requirement to grow across many of our capabilities in 
the Air Force.
    Ms. Bordallo. Oh, that's good news. Admiral Conn.
    Admiral Conn. I think if you look at the size of the 
Pacific, and you think of sustaining combat operations, the 
importance of logistics cannot be overstated, whether it be our 
MSC [Military Sealift Command] fleet that provides surface 
lift, whether--or our NUFEA aircraft, or C-40As, and our C-
130Ts right now. They are going to play an integral part of 
making sure the warfighters have what they need to wage combat 
operations in that environment.
    Ms. Bordallo. Well, that's good news.
    And Mr. Chairman, I yield back.
    Mr. Wittman. Thank you, Ms. Bordallo.
    Before we go to Ms. Hartzler, I want to take this 
opportunity, since this is the last of our subcommittee 
hearings for this subcommittee, to thank Ms. Bordallo for her 
service and the tremendous efforts that she has put forward on 
behalf of all of our men and women in uniform.
    She has been, I think, the leading proponent anywhere she 
goes. If anybody comes across her and doesn't know where Guam 
is, or what goes on on Guam, then it is--you are not listening, 
because she is absolutely the number one fan of the people of 
Guam, and I know that they appreciate your service to the 
Nation.
    You have done a spectacular job. We have had the 
opportunity to travel around the world together on CODELs 
[congressional delegations], and you have just been 
spectacular. So thank you so much. What a real testament to 
public service, and our Nation is better because of your 
service, and we thank you.
    Ms. Bordallo. Thank you very much, Mr. Wittman, and I have 
enjoyed working with you.
    Mr. Wittman. Yeah, it is been a--been an honor and a 
pleasure.
    So with that, we will to Ms. Hartzler.
    Mrs. Hartzler. Mr. Chairman, I would concur on those 
remarks, and we are going to--we are going to miss you.
    So gentlemen, thank you for being here on this very 
important topic.
    According to the DOD [Department of Defense] National Guard 
and Reserve Equipment Report for Fiscal Year 2018, the average 
age of the C-130H fleet is 27 years old. The aircraft assigned 
to the Puerto Rico Air National Guard were among some of the 
oldest in the fleet. The mishap aircraft was delivered in 1965.
    So can you explain how the decision is made to assign 
aircraft to Air National Guard units?
    General Harris. Yes, ma'am. I will take that.
    We actually have our Strategic Basing Process that works 
through how--where and how we assign the aircraft that are 
changing. Based on the guidance that we have been given, we 
have put new J model C-130s into both the Active, Guard, and 
Reserves, so we have elements that are in each one of those 
fleets.
    And once we had that, then we looked at replacing the 
oldest aircraft first, and many of those were in the Active 
Duty. So that's why most of the E models have been retired--
actually, all the E models have been retired at this point, and 
we are getting after the last aging ones.
    So Puerto Rico is some of the oldest aircraft that are 
still flying. They are down to just a few airplanes. And we are 
continuing to work through the Strategic Basing Process to 
determine what is the best mission suitable for the fantastic 
airmen that we have there.
    Mrs. Hartzler. What is the age of the oldest aircraft? So 
are there still other ones in Puerto Rico that are 1965 models?
    General Harris. There are some 1965, ma'am, spread across 
the fleet. Most of those are simple Hs, because we have an H, 
an H1, 2, 3--different variants of those. We show that C-130Hs 
are resident both in Puerto Rico and we also have some in Great 
Falls and a couple other locations.
    Mrs. Hartzler. So there is a plan, then, to recapitalize 
the legacy C-130 aircraft?
    General Harris. To recapitalize? No, ma'am. We are doing 
our best to modernize; and, at this time, we are not asking for 
additional recapitalization efforts.
    We do see support here from Congress for more. And as we 
get new C-130Js, we do put those into the oldest fleet. And 
that's how we will work the Strategic Basing Process.
    Mrs. Hartzler. Okay, very good.
    After the mishap, there was a strategic review that was 
done. That came out with some--a list of risk and recommended 
mitigations, corrective actions to be completed not later than 
June 15th of this year.
    And I apologize, I was a little late. Maybe you have 
already covered that. But can you give me an update on, kind 
of, that report? I haven't had a chance to read it. What were 
some of the recommendations that were part of that? And where 
are you at in implementing those that were supposed be done by 
June?
    General Harris. With regard to a specific accident, ma'am, 
we--the investigation's still ongoing. And we have not 
implemented the--anything that would have come from there yet.
    For the strategic report that you are speaking of, if it 
was a June implementation, I will have to get back with you for 
that.
    Mrs. Hartzler. Okay. Thank you very much. Appreciate. Yield 
back.
    Mr. Wittman. Thank you, Ms. Hartzler.
    We will now go to Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And I, of course, 
acknowledge my colleague and all the teachable moments that 
you--that you created for us. I think we learned a great deal 
from you, and I appreciate it.
    I wanted to just go back to sort of a basic question. 
Because I know that, Rear Admiral Conn, you raised in your 
statement the fact that Congress--you would like to see 
Congress prioritizing preparedness. And also, you were 
concerned about the resilience, I think, as well, of our force 
posture and, certainly, accelerating technological 
advancements. What--could you you be somewhat specific about 
it?
    And--to others as well, what would you really like to see 
in Congress' desire, of course, and our opportunity to really 
help in this situation?
    Admiral Conn. Well, certainly, Congress helped. We have 
guidance from the National Defense Strategy that gives us 
priorities. We have guidance from the CNO [Chief of Naval 
Operations] in terms of the things we need to prioritize. He 
calls it ``the Navy the Nation needs,'' which is the maritime 
expression of that single strategy in the National Defense 
Strategy.
    Readiness recovery across all our aircraft is a priority at 
the mission-capable rates that we have right now. It affects 
retention. It affects combat capability. It affects our ability 
to--lethality, of what we need to do. For the NUFEA aircraft it 
affects our ability to do the things we need to do, based on 
the various priority missions, and if our aircraft aren't up, 
we aren't able to execute those missions or train the people to 
execute those missions.
    So from a PB19 level and what is in that budget, we can 
do--we are doing a lot. We will always have more requirements 
than resources. It would always come down to prioritization. I 
just don't want to go back to where we have to make false 
choices of readiness or modernization or recapitalization. We 
have been there before and we shouldn't go back.
    Mrs. Davis. General Kirkland, did you want to respond as 
well?
    General Kirkland. Ma'am, actually, in that topic, I will 
defer to General Harris on the program ex [execution].
    General Harris. Ma'am, very similar to the Navy response. 
Resiliency is extremely important, and as long as we pay our 
airmen a fair wage and then give them a value-added mission 
where they feel like they are working and attaining the freedom 
that this country fights for, we find that the airmen are 
empowered and want to do what it is that they do so well.
    Our job to take care of those airmen is to make sure they 
have the resources they need to get that job done in the most 
efficient, effective, and safe manner, and we do start with 
safety, then compliance.
    So, much like our Navy colleagues, we do have to make some 
tough choices. We do our best to prioritize those, and it is an 
older fleet for the C-130s but our KC-135 and our B-52 fleets 
are even older. So we are doing what we can to modernize and 
make those airplanes sustain and get the mission done that we 
need based on the priorities that we have.
    Mrs. Davis. Yes. So I think I am hearing you also say not 
to ignore the personnel issues in making sure that we are 
attracting and bringing into the force as well as maintaining 
the force that we have. And sometimes I think that we have a 
tendency to think that, well, that's where we can save money. 
And it sounds like that's not been your experience. Thank you. 
I appreciate that.
    I know my colleague brought up the need for--and you have 
responded about the skilled journeymen that we need. I am also 
wondering about STEM [science, technology, engineering, and 
math] fields, as well. I mean, there's been a tremendous amount 
of focus on this, and yet, when it comes to the number of 
individuals that are needed in just a host of different areas, 
you know, we graduated about 500,000 STEM students. China 
produced about 1.3 million.
    What--how is your job really made harder by the fact that 
we have not invested, actually, in human capital as well as we 
could?
    General Harris. Well to this point, the service has been 
able to hire the talent that we have needed, which is very 
helpful for us, so we see that coming out of the American 
public.
    We do what we can to invest in STEM, and our Secretary, 
Secretary Wilson, has been very good about that coming from her 
background, so she has been most helpful and encouraging us to 
work with the universities and academia to make sure that we 
have people understanding that it is a great career field to 
come into any of our services and defend our country.
    General Kirkland. If I might add, from the sustainment 
perspective on the Air Logistics Complex Air Force side, 
engineers in that technical workforce are absolutely part of--
that we have to have. It is a national defense issue.
    Our growth industries and software, both in the development 
and the sustainment of the software, sometimes for 50, 60 years 
of a weapon system, we need to recruit and retain electrical 
engineers and other engineers to keep that business going and 
provide a cost-effective solution for our readiness.
    Mrs. Davis. Do you see us doing that across the board as 
well as we could? I mean, making sure that--what role should we 
all be playing, really, I think, in terms of reaching out to 
students, whether it is in middle school, high school, to 
really help them to see--you know, we always say you can't be 
what you can't see.
    We have--in some communities, we have the opportunity for 
young people to know something about what is going on with the 
military, and certainly with the--with the Air Force, Navy, et 
cetera. But there are many communities in which that is not 
true. How do we make sure that we are reaching them as well?
    Admiral Conn. I think all the services are in a competition 
for talent with industry, with academia, and within the 
services itself. I think we have to look at how we train 
differently for our people. How do we set them up for success?
    That is part of the Ready, Relevant Learning. It is not 
just about the individual's academic background, but what is 
the environment in which we are training them in that gives 
them the relevant information to be able to do the tasks they 
need to do when they need to do them?
    But we can't understate the challenge we have, and this is 
a little outside my lane, but of recruiting the talent we need 
as we are growing the force. And I think the recent--there has 
been changes to bonuses that have been helpful. I can't speak 
to the trends yet, but initially they look good. But it is also 
getting those talented sailors who maintain those aircraft, who 
work on those ships. It is going to be a challenge, in my view.
    Mrs. Davis. I would wonder if perhaps, in your thinking 
about this, it sounds like you have given it some thought, 
whether there are ways that we could be organized differently 
to do that better, and to make sure that as you suggest, the 
environment and the incentives could possibly be different?
    General Harris. So ma'am, if I may respond to that, 
Secretary Wilson has recently nearly doubled our College Intern 
Program, which is bringing much more young talent to us. But 
she is also having us change the capacity of our recruiting 
squadrons, both in where they are at, and where they go to get 
to the talent that's available for us.
    And then finally, a lot of the people are getting 
experience. As we said, software is one of our growing 
concerns. Instead of bringing everybody in as a young airman or 
a young officer, it is hiring people to the right skill level 
that they are already at, and we are working with Congress to 
get that authority, and it has been very helpful.
    Mrs. Davis. Okay, we will continue to work on that. Thank 
you. Thank you all.
    Mr. Wittman. Thank you, Mrs. Davis.
    If there are no other questions from the committee members, 
I want to thank our witnesses. Lieutenant General Harris, thank 
you. Lieutenant General Kirkland, thank you. Rear Admiral Conn, 
thank you. Thanks for your perspectives.
    As you have pointed out, we have some challenges ahead, but 
we want to make sure that we are on track with the upgrades 
with existing aircraft and modernization with aircraft 
replacement, and making sure that we stay on track. So we 
appreciate your efforts, and we look forward to continued 
progress in those realms.
    And if there's nothing else to come before the 
subcommittee, we stand adjourned.
    [Whereupon, at 9:51 a.m., the subcommittee was adjourned.]


      
=======================================================================

                            A P P E N D I X

                           September 28, 2018

=======================================================================


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 28, 2018

=======================================================================

            
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 28, 2018

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. COURTNEY

    Mr. Courtney. The Air Force and the Navy are pursuing propeller 
modifications to legacy C-130Hs and the Navy C-130T. Do you believe 
that the NP2000 propeller modifications will help to prevent future 
propeller casualties and are you confident that the inclusion of the 
NP2000 system will not induce risk given it was not the original 
propeller system?
    General Harris. All flight and operational testing conducted by the 
U.S. Air Force (USAF) indicates that installation of NP2000 propellers 
on C/LC-130H aircraft does not change the overall operational risk to 
these aircraft. Since 2005, USAF C-130 engineering has partnered with 
Lockheed Martin, Hamilton-Sundstrand, Rolls Royce, USAF test centers 
(Edwards AFB, Eglin AFB, Air National Guard Air Force Reserve Command 
Test Center), the Air National Guard and various integration companies 
to accomplish tasks necessary to integrate the NP2000 propellers onto 
USAF C-130H aircraft. Areas of concerns discovered were adequately 
addressed by additional USAF testing and redesign. Airworthiness of C/
LC-130Hs with NP2000 propellers conforms to the requirements of the 
USAF military airworthiness process. To safely operate the aircraft, 
performance and handling differences between the original propeller 
system and the NP2000 have been documented in all appropriate technical 
orders, flight and maintenance manuals. The primary purpose of the 
NP2000 propeller is to improve the performance of the C/LC-130H 
aircraft in conditions where it is currently limited; for example, LC-
130H aircraft are now able to takeoff from remote fields in Antarctica 
without the use of Jet Assisted Takeoff bottles and with much shorter 
takeoff distances. The USAF has accumulated approximately 4,000 flight 
hours including C/LC-130H flight test and LC-130H operational missions 
to Antarctica and Greenland. The USAF also shared the NP2000 
certification data with Naval Air Systems Command (NAVAIR); the NP2000 
propeller is currently installed on the following USN aircraft: 2 C-
130T, 34 E-2D, 39 E-2C and 34 C-2A. The USN has accumulated over one 
million flight hours on the NP2000 propeller installed on these 
aircraft.
    Mr. Courtney. Lieutenant General Kirkland, in your written 
testimony, you touched upon the importance of corrosion prevention and 
control. I understand that the Air Force has recently looked at 
adopting a new liner blanket technology for the C-130, originally 
developed for the Army's CH-47 fleet, and that this technology has the 
potential to significantly reduce corrosion to the airframe. Could you 
discuss this effort specifically, as well as the importance of 
corrosion control for the C-130 in general?
    General Kirkland. Corrosion prevention and control remains one of 
the top sustainment drivers for the C-130. Much of the field and depot 
maintenance that is conducted on the C-130 is performed to identify, 
correct, and prevent corrosion. It is estimated that $550M per year is 
expended on the C-130 in corrosion prevention and control. The C-130 
Program Office has an active corrosion control program; to include, 
continued assessment of emerging and existing corrosion issues, 
incorporation of newly developed corrosion control measures, 
performance of up to 7 field visits per year, and holding regular 
Corrosion Prevention Advisory Board meetings. As part of the corrosion 
prevention and control efforts, the Improved Thermal Acoustic Blanket 
(ITAB) that was incorporated on the CH-47 was identified as a 
replacement for the existing aircraft interior insulation. The C-130 
Program Office is currently working on a contract to procure prototype 
blanket kits to replace the interior insulation blankets. The new 
blankets will be a preferred spare to the current blankets and fleet 
implementation is planned to be carried out via attrition during 
programmed depot maintenance (PDM). The breathability, along with 
several other technical properties, of the improved blanket material 
will help to prevent corrosion. Additionally, the improved ITAB 
attachment methods will make interior aircraft inspections easier to 
accomplish and repair kits will enable unit-level repair of the 
improved blankets.
    Mr. Courtney. The Air Force and the Navy are pursuing propeller 
modifications to legacy C-130Hs and the Navy C-130T. Do you believe 
that the NP2000 propeller modifications will help to prevent future 
propeller casualties and are you confident that the inclusion of the 
NP2000 system will not induce risk given it was not the original 
propeller system?
    Admiral Conn. NAVAIR has begun to modify 24 C/KC-130T aircraft with 
the NP2000 propeller. The NP2000 propeller is currently installed on 
the following Navy aircraft: 2 C-130T, 34 E-2D, 39 E-2C and 34 C-2A. 
USAF has installed the NP2000 propeller on 10 USAF C/LC-130H aircraft. 
USAF tested and certified the NP2000 installation on the C/LC-130H and 
updated performance manuals with modified procedures to safely operate 
the aircraft. USAF shared certification data with NAVAIR, which used it 
to determine airworthiness of the NP2000 propeller installed on Navy C/
KC-130T aircraft. The same data was used to generate maintenance 
manuals, an operator's manual, and a performance manual to support 
fleet operations. USN has accumulated over one million flight hours on 
the NP2000 propeller installed on the E-2D/E-2C/C-2A fleet. USAF has 
accumulated approximately 3900 flight hours on C/LC-130H aircraft. The 
inter-service cooperation resulted in USN avoiding millions of dollars 
in redundant costs. Since NAVAIR used the USAF data to certify NP2000 
propeller installed on the C/KC-130T, Navy was able to develop the 
modification package, modify the first aircraft and prepare for 
functional check flight in 97 days. This expedited NAVAIR certification 
process and aircraft modification is a key contributor to accelerating 
the restoration of the legacy C/KC-130T fleet to flight operations post 
grounding. NAVAIR has concluded that the NP2000 propeller system 
performance characteristics are slightly different than the legacy 
54H60 propeller; however, the operational risk posture of the C/KC-130T 
aircraft remains unchanged.

                                  [all]
</pre></body></html>
